          REVIEW OF THE
  FEDERAL ACQUISITION SERVICE’S
NATIONAL CUSTOMER SERVICE CENTER
 REPORT NUMBER A110072/Q/6/P11004
          MARCH 31, 2011
Date       :March   31, 2011
Reply to
Attn of    :Heartland   Region Field Audit Office (JA-6)

Subject :Review   of the Federal Acquisition Service’s National Customer Service Center
           Report Number A110072/Q/6/P11004

To         :Michael
                  T. Brincks
           Regional Commissioner, Federal Acquisition Service (6Q)

           Robert R. Blake
           Director, National Customer Service Center (6QCB)


           This report presents the results of our review of the Federal Acquisition Service’s (FAS)
           National Customer Service Center (NCSC) in Kansas City, Missouri. The review was
           included in the GSA’s Office of Inspector General Fiscal Year (FY) 2011 Audit Plan.

           The report found that the NCSC operates effectively and efficiently based on its current
           performance measures which assess service level, production, and quality. However,
           the NCSC is not currently monitoring whether it provides these services in a cost
           effective manner. FAS would benefit from implementing cost performance measures to
           monitor efficiency. In addition, FAS should complete a study to determine appropriate
           staffing levels based on the current NCSC workload and implement necessary revisions
           to the standards for employee performance measures.

           We have included your written comments in Appendix B to the draft report. If you have
           any questions regarding this report, please contact me at (816) 926-8610.
                            REVIEW OF THE
                    FEDERAL ACQUISITION SERVICE’S
                  NATIONAL CUSTOMER SERVICE CENTER
                   REPORT NUMBER A110072/Q/6/P11004

                            TABLE OF CONTENTS
                                                                       Page

EXECUTIVE SUMMARY                                                        i

RESULTS OF REVIEW                                                       1

    Finding 1 – The NCSC Should Establish Cost Measures                 1

          Recommendation                                                2

    Finding 2 – The NCSC Should Evaluate Staffing Needs and Employee
                Performance Measures                                    3

          Recommendations                                               4

    Conclusion                                                          4

    Internal Controls                                                   4

    Management Comments                                                 4

APPENDIXES

    Appendix A – Background, Scope, and Methodology                    A-1

    Appendix B – Management Response                                   B-1

    Appendix C – Report Distribution                                   C-1
                              REVIEW OF THE
                      FEDERAL ACQUISITION SERVICE’S
                    NATIONAL CUSTOMER SERVICE CENTER
                     REPORT NUMBER A110072/Q/6/P11004

                              EXECUTIVE SUMMARY


The Federal Acquisition Service’s (FAS) National Customer Service Center’s (NCSC)
primary mission is to provide excellent customer service to all internal and external
General Services Administration (GSA) customers. The NCSC is a full-service center
providing information on any of the products and services available from the GSA. In
addition to handling transportation, billing, and shipping discrepancies, the NCSC
assists with customer support issues such as pricing, order status, points-of-contact,
billing inquiries, problems with GSA orders, and schedules information.

The objective of this review was to determine if the FAS’s NCSC provides efficient and
effective customer support and problem resolution. The review was included in the
GSA’s Office of Inspector General Fiscal Year (FY) 2011 Audit Plan.

The NCSC operates effectively and efficiently based on its current performance
measures which assess service level, productivity, and quality. While these measures
appear adequate, they could be enhanced to include an evaluation of the NCSC’s cost
effectiveness. Accordingly, FAS should implement measures to monitor the cost
efficiency of NCSC operations. In addition, the NCSC’s work has changed over the
past 5 years; therefore, FAS should perform a study to evaluate the current NCSC
staffing levels and the standards for employee performance may need to be revised.

Recommendations

We recommend that the Commissioner, Heartland Region, Federal Acquisition Service:

   1. Develop and implement measures to monitor the cost efficiency of the NCSC
      operations;

   2. Perform a study to evaluate the NCSC staffing needs in comparison to its current
      workload; and

   3. Review the standards for NCSC employee performance measures and adjust
      them as needed.

Management Comments

The Regional Commissioner, Federal Acquisition Service, concurred with the findings
and recommendations of the draft report. See Appendix B of this report for
management’s response to the draft report.



                                       i
                                    REVIEW OF THE
                            FEDERAL ACQUISITION SERVICE’S
                          NATIONAL CUSTOMER SERVICE CENTER
                           REPORT NUMBER A110072/Q/6/P11004

                                      RESULTS OF REVIEW


Finding 1 – The NCSC Should Establish Cost Measures

The NCSC has two key performance metrics to assess efficiency and effectiveness:

      (1) answering a phone call within 20 seconds (goal is 90 percent), and
      (2) abandoned call 1 rate (goal is 2 percent).

The NCSC also tracks the percentage of calls answered and the total cases opened
and closed. The NCSC defines cases as customer records (e.g., discrepancies,
requests for information, quality issues, etc.) entered into the Virtual Information Service
System (VISS). 2

One of the NCSC’s quality measures is customer satisfaction tracked through customer
surveys. The NCSC’s customer satisfaction index score was 72.4 for 2009 and 76.3 for
2010. These scores exceed the benchmark scores for government call centers, which
were 64.0 and 69.0 for 2009 and 2010, respectively.

As shown in the following chart, the NCSC has successfully exceeded its two
performance goals for the last 3 years and maintains a positive trend in providing
customer service and problem resolution.

         NCSC Performance Metrics                         FY 2008      FY 2009        FY 2010
          Abandoned call rate (Goal 2%)                       0.7%         1.6%         0.4%
          % of calls answered within 20 seconds              96.8%        91.5%        99.3%
          (Goal 90%)
          % of calls answered                                99.3%       98.4%         99.6%
          Cases Opened                                       67,071      84,289        68,384
          Cases Closed                                       67,783      78,361        68,884


Two other NCSC measures developed from VISS data evaluate the percentage of
discrepancies resolved within 1 day and the percentage of discrepancies resolved
within 30 days. The data demonstrates that the NCSC is currently resolving more


1
 An abandoned call occurs when the customer disconnects or cancels the call after connecting to the
NCSC’s phone system but before a technician answers.
2
    VISS is the NCSC’s automated customer service and discrepancy reporting system.


                                               1
discrepancies within 1 day at higher rates than in 2008 and is steadily increasing the
percentage of discrepancies resolved within 30 days.

          Discrepancy
    Performance Measures           FY 2008       FY 2009      FY 2010    Q1 FY 2011
   Discrepancies Resolved            75,632      104,530        77,956        19,148
   % Resolved within 1 Day          45.30%        42.11%       51.62%        47.35%
   % Resolved within 30 Days        90.44%        79.69%       88.76%        90.51%


While the NCSC appears to be providing satisfactory customer service and problem
resolution, the NCSC is not currently monitoring whether it provides these services in a
cost effective manner. Useful metrics to determine cost efficiency in the past included
cost per call or cost per case calculations. Labor is the NCSC’s largest expense and
total operating costs for the NCSC have increased each year. Since 2008, contractor
support services have increased 59 percent. Implementing cost measures could assist
NCSC management in tracking and reducing labor expenses.

                                     NCSC Costs




FAS has adequate performance measures to analyze the productivity, service level, and
quality; however, FAS would benefit from implementing cost performance measures to
monitor the NCSC’s operating costs.


Recommendation

We recommend that the Commissioner, Heartland Region, Federal Acquisition Service:

   1. Develop and implement measures to monitor the cost efficiency of the NCSC
      operations.



                                       2
Finding 2 – The NCSC Should Evaluate Staffing Needs and Employee
Performance Measures

A formal assessment of the NCSC’s staffing levels has not been performed since 2003.
The NCSC currently carries out its functions with a core group of government
employees supplemented by contractors. Contractor employees support NCSC
discrepancy and call center functions. They also help with special requests and new
initiatives. Most recently, such initiatives have included partnering with FAS’s Office of
Integrated Technology Services to assist the Information Technology Schedule 70
acquisition center with customer service calls. During 2009, the NCSC increased
contract support by six employees due to an increase in workload related to credit card
transactions. In October 2010, the NCSC added two more contract employees to
account for a change in operations from 12-hours, 5 days per week to 24-hours, 5 days
per week.

We also noted that in 2008, NCSC Service Representatives started answering phone
calls, and Supply Technicians were trained to resolve cases. The performance plans
for these in-house employees were revised to reflect these added duties.

We analyzed employee performance measures tracked from the NCSC’s Automatic
Call Distribution (ACD) 3 phone system. These measures include but are not limited to
time available to answer calls, time spent on calls, after call work time, number of calls
answered per employee, and the number of calls logged into VISS per employee. We
found the following:

                             Calls Answered by the NCSC
            Employee Type           FY 2008 FY 2009 FY 2010               Q1 FY 2011
        Government Employees         75,407    86,939   79,766                15,213
        Contractor Employees         80,926    86,830   69,805                12,620
        Total                       156,333 173,769 149,571                   27,833


While there is a downward trend in the total number of calls answered by the NCSC, the
number of calls answered by government employees is increasing. NCSC officials
attributed these trends to additional functions (i.e., special requests and new initiatives)
being performed by contractor employees. However, the NCSC currently does not track
productivity information for these new initiatives, and the government employee
performance plans do not contain any measures for the new tasks.

Further, the number of discrepancies related to billing issues has decreased
dramatically (35,901 cases in 2009 vs. 7,605 cases in 2010). Lastly, workload effects of
new functions are unknown and may be unpredictable.



3
  ACD is the NCSC’s phone system that automatically distributes incoming calls based upon a routing
strategy that determines the best available employee to respond to a given incoming call.


                                            3
Accordingly, FAS should evaluate the current NCSC staffing needs and establish
performance measure standards for new initiatives. These steps will allow NCSC
management to assess staffing needs and allocate the appropriate resources to NCSC
tasks.


Recommendations

We recommend that the Commissioner, Heartland Region, Federal Acquisition Service:

   2. Perform a study to evaluate the NCSC staffing needs in comparison to its current
      workload; and

   3. Review the standards for NCSC employee performance measures and adjust
      them as needed.


Conclusion

The NCSC provides effective and efficient customer support and problem resolution
based on its current performance measures which assess service level, productivity,
and quality. However, we were unable to evaluate whether the NCSC provides these
services in a cost effective manner. FAS should implement cost performance measures
to monitor efficiency. In addition, FAS should complete a study to determine
appropriate staffing levels based on the current NCSC workload and implement
necessary revisions to the standards for employee performance measures.


Internal Controls

Our evaluation of internal controls in the National Customer Service Center was limited
to those areas necessary to accomplish our audit objective.              We provided
recommendations to strengthen and improve the current controls as discussed in the
Results of Review.


Management Comments to the Draft Report

On March 25, 2011, the Regional Commissioner, Federal Acquisition Service,
concurred with the findings and recommendations of the draft report. Appendix B of this
report contains the Regional Commissioner’s written comments in their entirety.




                                       4
APPENDIXES
                                  REVIEW OF THE
                          FEDERAL ACQUISITION SERVICE’S
                        NATIONAL CUSTOMER SERVICE CENTER
                         REPORT NUMBER A110072/Q/6/P11004

                                 APPENDIX A
                     BACKGROUND, SCOPE, AND METHODOLOGY

Background

In October 1983, GSA’s Federal Supply Service (FSS) 4 established the Discrepancy
Reports Center (DRC) in Kansas City, Missouri, as the central location to receive and
process all customer-reported discrepancies. The overall task of the DRC included
resolving three types of supply discrepancies: transportation, shipping, and billing. In
1990, FSS designated the DRC as its national information center. The DRC provided
toll-free telephone assistance to answer questions about issues concerning GSA
supplies and services. The DRC was renamed the National Customer Service Center
(NCSC) in 1992.

Today, the NCSC is a key source for information on any of the products and services
available from GSA. The NCSC is a full-service operation assisting customers and
vendors with issues related to pricing, order status, points-of-contact, tracing shipments,
billings, problems with GSA orders, and schedules information. The Center has also
taken on new initiatives such as collecting past due accounts, marketing activities, and
answering calls for the Information Technology Schedule 70 acquisition center. In
January 2011, the NCSC transformed its operations from 12-hours, 5 days per week to
24-hours, 5 days per week to provide services to overseas customers.

Since we last reviewed the NCSC 5 in 1997, its organizational structure has changed
significantly. Today, the NCSC is assigned to the Heartland Region and reports directly
to the Regional FAS Commissioner.

Scope and Methodology

To accomplish our objective, we:

    •   Reviewed the NCSC’s current organizational structure and operating procedures
        and policies, including the NCSC’s performance measures and mission
        statement;


4
  On October 6, 2006, the General Services Administration Modernization Act, Public Law 109-313,
established the Federal Acquisition Service (FAS) combining GSA’s legacy Federal Technology Service
and the FSS.
5
 GSA OIG Report A61830/F/6/V97004, “Advisory Review of Operations of FSS’s National Customer
Service Center,” dated January 10, 1997.


                                           A-1
   •   Analyzed information contained in the NCSC’s Virtual Information Service
       System, which is the internal automated customer service and discrepancy
       reporting system, and the Automated Call Distribution phone system;
   •   Reviewed the NCSC’s fiscal year-end actual expenditures for 2008, 2009, and
       2010;
   •   Reviewed relevant reports from the GSA’s Office of Inspector General; and
   •   Interviewed appropriate personnel in the NCSC and held discussions with FAS
       officials.

The scope of our review was Fiscal Year (FY) 2008 through the first quarter of FY 2011.
We note that the NCSC experienced an anomaly year during FY 2009 due to credit card
billing issues that inundated the Center.

We conducted this performance audit from November 2010 through February 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                      A-2
          REVIEW OF THE
  FEDERAL ACQUISITION SERVICE’S
NATIONAL CUSTOMER SERVICE CENTER
 REPORT NUMBER A110072/Q/6/P11004


           APPENDIX B
       Management Response




            B-1
                                REVIEW OF THE
                        FEDERAL ACQUISITION SERVICE’S
                      NATIONAL CUSTOMER SERVICE CENTER
                       REPORT NUMBER A110072/Q/6/P11004


                                     APPENDIX C
                                   Report Distribution

                                                                   Copies

Regional Commissioner, Federal Acquisition Service (6Q)              1

Director, National Customer Service Center (6QCB)                    1

Regional Administrator, Heartland Region (6A)                        1

Regional Counsel (6L)                                                1

Director, Internal Control & Audit Division (BEI)                    1

Assistant Inspector General for Auditing (JA & JAO)                  2

Counsel to the Inspector General (JC)                                1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1

Special Agent in Charge (JI-6)                                       1




                                        C-1
